Audit Report




OIG-13-049
SAFETY AND SOUNDNESS: Improvement Needed in OCC’s
Oversight of Foreclosure Related Consent Orders
September 9, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents



Audit Report................................................................................................. 1

    Background ................................................................................................ 3

    Audit Results .............................................................................................. 6

        OCC’s Efforts to Determine Servicer Compliance with Consent
           Orders ..............................................................................................    6
        Evaluation and Monitoring of Consultants’ Independence .............................                        7
        Borrower Outreach Efforts .......................................................................          10
        Independent Foreclosure File Reviews .......................................................               13
        Monitoring Servicer Corrective Action .......................................................              15

    GAO Lessons Learned Review, Concluding Remarks, and Recommendations ...... 16

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................                 20
    Appendix     2:      Management Response .........................................................             23
    Appendix     3:      Major Contributors to This Report ...........................................             25
    Appendix     4:      Report Distribution ................................................................      26


Abbreviations and Acronyms

    EIC                  examiner in charge
    FDIC                 Federal Deposit Insurance Corporation
    FRB                  Board of Governors of the Federal Reserve System
    GAO                  Government Accountability Office
    IFR                  independent foreclosure review
    MERS                 Mortgage Electronic Registration Systems, Inc.
    OCC                  Office of the Comptroller of the Currency
    OIG                  Office of Inspector General
    OTS                  Office of Thrift Supervision
             This page intentionally left blank




-   Improvement Needed in OCC’s Oversight of Foreclosure Related   Page ii
    Consent Orders (OIG-13-049)
                                                                                     Audit
OIG
The Department of the Treasury
                                                                                     Report
Office of Inspector General




                      September 9, 2013

                      Thomas J. Curry
                      Comptroller of the Currency

                      This report presents the results of our audit of the Office of the
                      Comptroller of the Currency’s (OCC) oversight of the foreclosure-
                      related consent orders that OCC issued in April 2011, in
                      conjunction with the Board of Governors of the Federal Reserve
                      System (FRB) and the former Office of Thrift Supervision (OTS). 1
                      These consent orders were issued against 14 major mortgage
                      servicers for unsafe and unsound practices in residential mortgage
                      servicing and foreclosure processing. FRB later issued consent
                      orders against 2 additional major mortgage servicers bringing the
                      total of servicers subject to this set of consent orders to 16
                      (referred to in this report as the original consent orders). Among
                      other things, the consent orders required the servicers to
                      implement an independent foreclosure review (IFR) process using
                      independent consultants to determine financial injury to affected
                      borrowers.

                      Our audit objectives were to assess OCC’s: (1) oversight of
                      servicers’ efforts to comply with consent orders; (2) determination
                      of qualifications and independence of consultants hired by servicers
                      in accordance with consent orders; (3) oversight of consultants’
                      efforts to perform outreach, conduct file reviews, and review
                      homeowner claims of financial harm; and (4) oversight of the single
                      integrated claims process established by OCC, servicers, and the
                      consultants.




1
  Effective July 21, 2011, in accordance with Public Law 111-203, the functions of OTS were
transferred to FRB, the Federal Deposit Insurance Corporation (FDIC), and OCC. Consent orders issued
by OTS prior to the transfer remained in effect and enforceable by OCC.

                      Improvement Needed in OCC’s Oversight of Foreclosure Related              Page 1
                      Consent Orders (OIG-13-049)
                       We conducted our fieldwork from January 2012 through August
                       2012. We interviewed OCC management and made inquiries of
                       examiners-in-charge (EIC) at five servicers subject to the consent
                       order. We reviewed engagement letters, OCC guidance, and
                       monitoring reports used by OCC to track the progress of reviews.
                       We also reviewed OCC documentation related to the independence
                       monitoring process and interaction with stakeholders on the
                       development of certain guidance. Appendix 1 contains a more
                       detailed description of our audit objectives, scope, and
                       methodology. It should be noted that concurrent with our review,
                       the Government Accountability Office (GAO) was reviewing the IFR
                       process. We coordinated with GAO and in this report, have
                       synopsized its June 2012 and April 2013 reports on the subject. 2

                       Subsequent to the completion of our fieldwork, OCC sought to end
                       the IFR process because the reviews were taking longer than
                       anticipated and delaying compensation to affected borrowers. In
                       January 2013, OCC and FRB negotiated a change to the terms of
                       the original consent orders with 13 of the 16 servicers. Those
                       amended orders were issued in February 2013. Amended consent
                       orders were issued for 10 of the 12 servicers under OCC
                       supervision and 3 of the 4 servicers under FRB supervision. The
                       new terms provided for an immediate cessation of the IFR process,
                       required that servicers make direct cash payments to potentially
                       harmed borrowers, and required servicers to initiate a range of
                       foreclosure relief actions. Three servicers, two of which were
                       supervised by the OCC, did not agree to change their consent
                       orders and were planning to continue the IFR process to
                       completion. 3

                       Prior to this change in the terms, we found that OCC had
                       developed a framework to monitor servicers’ corrective action
                       plans and oversee the IFR process. However, we noted certain
                       areas where OCC oversight needed strengthening. Specifically,
                       OCC had not performed comprehensive direct testing of individual

2
  GAO, Foreclosure Review: Opportunities Exist to Further Enhance Borrower Outreach Efforts,
GAO-12-776 (June 29, 2012) and Foreclosure Review: Lessons Learned Could Enhance Continuing
Reviews and Activities under Amended Consent Orders, GAO-13-277 (Mar. 26, 2013)
3
  On August 23, 2013, OCC announced that one of these servicers agreed to change its consent order
to also make direct cash payments to eligible mortgage borrowers and provide other foreclosure relief,
which will effectively end the IFR process for this servicer.

-                      Improvement Needed in OCC’s Oversight of Foreclosure Related              Page 2
                       Consent Orders (OIG-13-049)
                       IFRs to assess whether independent consultants were performing
                       the reviews objectively, consistently, and in compliance with OCC
                       guidance. In addition, improvements were needed in the
                       documentation of various aspects of OCC oversight.

                       We are recommending that OCC (1) develop and implement
                       examiner guidance defining the timing and scope of OCC’s direct
                       testing of individual foreclosure reviews at the two OCC-supervised
                       servicers who are continuing the IFR process to ensure compliance
                       and consistency 4 and (2) improve documentation of OCC oversight
                       activities. Because of the changes that took place when OCC and
                       FRB ended the foreclosure review process, we decided to
                       undertake, as a separate audit, an assessment of the events
                       leading to and the decisions made to change the terms of the
                       consent orders, to include how the new settlement amounts were
                       derived, and OCC’s monitoring of servicer compliance with the
                       amended consent orders.

                       In a written response, which is included as appendix 2, OCC stated
                       that (1) to assure consistency in oversight at servicers continuing
                       the IFR process, testing is being conducted by one examination
                       team whose work and findings are reported to headquarters and
                       senior management; and (2) it recognizes the need for greater
                       documentation and has taken several steps to improve the
                       documentation of its oversight. We consider the actions taken by
                       OCC to be responsive to our recommendations.


Background
                       OCC’s primary mission is to charter, regulate, and supervise all
                       national banks and federal savings associations. It also supervises
                       the federal branches and agencies of foreign banks. OCC’s goal in
                       supervising banks and federal savings associations is to ensure that
                       they operate in a safe and sound manner and in compliance with
                       laws requiring fair treatment of their customers and fair access to
                       credit and financial products.


4
  As discussed in Footnote 3, one of the two servicers agreed to a change in its consent order that will
end the IFR process for that servicer. Once the consent order is amended for that servicer, this
recommendation will apply to the remaining OCC-supervised servicer continuing the IFR process.

-                      Improvement Needed in OCC’s Oversight of Foreclosure Related                Page 3
                       Consent Orders (OIG-13-049)
                      During the recent economic crisis, the performance of mortgage
                      loans deteriorated significantly leading to increased rates of
                      foreclosure during the period 2008 through 2010. In the fall of
                      2010, reports of widespread irregularities such as robo-signing and
                      potential violations of law in the documentation and processing of
                      foreclosures prompted Congress to hold hearings on the matter. 5 In
                      response to these reports, OCC directed large national banks to
                      review their foreclosure processes.

                      In 2010, OCC, working with FRB, FDIC, and the former OTS
                      initiated a horizontal review 6 of foreclosure practices at 14 major
                      mortgage servicers. This review noted significant deficiencies and
                      weaknesses in foreclosure processing. On April 13, 2011, the
                      federal banking agencies announced that they had entered into
                      formal enforcement actions (consent orders) with the mortgage
                      servicers subject to review. 7 Later, FRB took similar action against
                      two other servicers under its supervision. 8 This brought the total of
                      mortgage servicers subject to the foreclosure consent orders to 16.

                      The consent orders required servicers to make extensive changes in
                      mortgage servicing and foreclosure processes to correct the unsafe
                      and unsound practices identified in the horizontal review. In
                      addition, servicers were required to retain independent consultants
                      to conduct a comprehensive review of their foreclosure activity in
                      2009 and 2010, to identify financial injury that resulted from
                      deficient foreclosure practices, and to provide compensation or
                      other remedy to borrowers for that injury. This process, which

5
  U.S. Senate Committee on Banking, Housing, and Urban Affairs: Problems in Mortgage Servicing from
Modification to Foreclosure, Part I, Nov. 16, 2010, and Part II, Dec. 10, 2010. U.S. House of
Representatives Committee on Financial Services: Robo-Signing, Chain of Title, Loss Mitigation and
Other Issues in Mortgage Servicing, Nov. 18, 2010.
6
  The term horizontal review refers to a bank examination in which the regulator simultaneously
performs the same examination procedures across a group of institutions.
7
  OCC took action against eight national bank servicers: Bank of America, N.A.; Citibank, N.A.; HSBC
Bank USA, N.A.; JPMorgan Chase Bank, N.A.; MetLife Bank, N.A.; PNC Bank, N.A.; U.S. Bank National
Association and U.S. Bank National Association ND; and Wells Fargo Bank, N.A. OTS took action
against four federal savings association servicers: Aurora Bank, FSB; EverBank and its thrift holding
company, EverBank Financial Corp.; OneWest Bank, FSB and its holding company IMB HoldCo LLC;
and, Sovereign Bank. FRB took action against the holding companies for the national banks mentioned
above and two other financial institutions under their supervision: Ally Financial, Inc., and SunTrust
Banks, Inc.
8
  FRB took action against Goldman Sachs Group, Inc., on September 1, 2011, and Morgan Stanley on
April 2, 2012.

-                     Improvement Needed in OCC’s Oversight of Foreclosure Related              Page 4
                      Consent Orders (OIG-13-049)
    became known as IFR, included a “request for review” portion
    where borrowers who believed they were financially harmed by
    servicers’ deficiencies could request a review of their foreclosure
    file. The review also required that the independent consultants
    perform a “look back review”—a review of a sampling of files from
    the servicers’ portfolios.

    During 2011 and 2012, the independent consultants performed
    IFRs. OCC officials told us that, as of November 2012, the
    independent consultants received about $2 billion in compensation
    from the servicers, but no borrower remediation for financial injury
    had been made. OCC officials concluded that the IFR process was
    taking longer than anticipated and delaying the compensation of
    affected borrowers. Working in conjunction with FRB, OCC began
    negotiating changes to the original consent orders with the
    servicers. In January 2013, new terms were agreed to by 13 of the
    16 servicers subject to the original consent orders (10 supervised
    by OCC and 3 supervised by FRB) and amended orders were issued
    in February 2013.

    The new terms provided for an immediate cessation of most IFR
    activity, required servicers to make direct cash payments of $3.6
    billion to potentially harmed borrowers, and required servicers to
    initiate a range of foreclosure prevention actions in an amount up
    to $5.7 billion over the next 2 years. OCC officials told us that the
    totals for cash payments to potentially harmed borrowers and
    foreclosure prevention actions were negotiated amounts.
    Furthermore, they expected that the negotiated total cash
    payments to potentially harmed borrowers would exceed the
    amount of remediation payments anticipated under the IFR process.

    Under the amended orders, servicers were required to categorize
    borrowers according to the most likely type of financial harm
    suffered as a result of foreclosure. The category in which the
    potentially harmed borrower was placed determined the amount of
    the cash payment to be made. OCC and FRB developed the
    categories and associated payment distribution plan. It should be
    noted that the categorization and payment distribution plan will be
    among the items we review during our upcoming audit, referred to
    above. Direct payments to potentially harmed borrowers began in
    April 2013.


-   Improvement Needed in OCC’s Oversight of Foreclosure Related   Page 5
    Consent Orders (OIG-13-049)
                Two of the three servicers that did not agree to the amended
                orders — EverBank and OneWest — are supervised by OCC. OCC
                officials told us that these two servicers did not agree to the
                change for a variety of reasons, including the belief that it was too
                costly. They also told us that these servicers were continuing to
                perform their assigned IFRs and OCC anticipated that these IFRs
                would be completed by calendar year-end 2013. On August 23,
                2013, OCC announced that EverBank had agreed to amend its
                consent order to make direct cash payments and provide other
                foreclosure relief.


Audit Results

                OCC’s Efforts to Determine Servicer Compliance with
                Consent Orders

                Prior to the change in terms of the consent orders, OCC developed
                an oversight framework intended to address the IFR process
                including processes that:

                    •   evaluated and monitored consultants’ independence;
                    •   defined and monitored borrower outreach;
                    •   defined and communicated required review parameters and
                        guidance for identifying instances that require financial
                        remediation; and
                    •   monitored the independent consultant performance of the
                        IFR.

                In addition, OCC implemented an automated tracking system to
                monitor servicer progress against action plans. These action plans
                were provided by the servicers as a way to implement the
                corrective action required by the consent orders.

                However, there were critical areas where OCC oversight needed to
                be strengthened.

                    •   As of the completion of our fieldwork, in August 2012,
                        OCC’s testing of individual IFRs had been limited. OCC had
                        not yet implemented a comprehensive process to select and
                        test samples of IFRs in a manner that would provide


-               Improvement Needed in OCC’s Oversight of Foreclosure Related    Page 6
                Consent Orders (OIG-13-049)
            meaningful feedback on the process. The consistent
            performance, documentation, and reporting of this testing
            was and, for the servicer where the IFR process is
            continuing (OneWest) still is, necessary to ensure the
            independent consultants were performing IFRs objectively,
            consistently, and meeting OCC’s expectations. This is
            especially important to compensate for the limitations that
            we noted in the process for evaluating independent
            consultants’ independence and to mitigate the risk of
            inconsistency given the inherent complexity of the IFR
            process and variations in the independent consultants’
            review methodology.
        •   We noted instances where the documentation of OCC
            oversight was lacking. For example, there were no formal
            procedures defining the scope of OCC’s ongoing monitoring
            of independent consultants’ independence and examiner
            oversight of IFR population determinations was not always
            documented. Developing and implementing procedures for
            documenting critical oversight events is an important part of
            good internal control and helps assure that the functions are
            performed consistently and accurately. In addition,
            maintaining complete documentation of the oversight
            activities performed and their results provides for a basic
            tenet of government, transparency and accountability. The
            maintenance of such documentation is also in the best long-
            term interest of OCC, especially if its actions are later
            questioned, as they have been.

    A more in-depth discussion of OCC oversight processes follows.

    Evaluation and Monitoring of Consultants’ Independence

    OCC’s process for evaluating the independence of the independent
    consultants was not documented in formal policies and procedures
    but was described by OCC officials as a two-tiered process
    consisting of an initial evaluation and ongoing monitoring.

        •   OCC communicated guiding principles related to determining
            the independence of prospective independent consultants.
            OCC also required each to provide summaries of current and
            past foreclosure-related work performed for the servicer they


-   Improvement Needed in OCC’s Oversight of Foreclosure Related    Page 7
    Consent Orders (OIG-13-049)
            proposed to review. These summaries were reviewed by
            OCC officials at the field level, forwarded to headquarters for
            further review and analysis and, if found consistent with the
            guiding principles, approved.
        •   After the independent consultant was engaged, the OCC EIC
            for the servicer was responsible for monitoring independence
            through ongoing discussion with the servicers and
            independent consultants. OCC officials told us that they took
            actions to address independence concerns raised during
            these discussions. We noted that the results of these
            discussions were not consistently documented.

    The guiding principles that OCC used to evaluate independent
    consultants’ independence were limited, focusing on prohibiting the
    independent consultant from working for a servicer at which it
    would be required to review foreclosure-related work that the
    consultant itself had performed. These principles did not impose a
    prohibition on all previous work with that servicer, even previous
    mortgage-related work. The guiding principles used to evaluate the
    independence of law firms engaged by independent consultants to
    support the independent review process also did not impose a
    prohibition on all previous work with that servicer, but it did bar the
    use of firms that had previously opined on certain foreclosure-
    related issues for any bank. Further, while these guiding principles
    were in writing, their formal approval by OCC management was
    not. We also noted that OCC did not have a documented standard
    by which it evaluated the independent consultants’ qualifications to
    perform foreclosure reviews. OCC officials told us that only firms
    with sufficient expertise and resources to perform the reviews
    were considered.

    We found that OCC’s independence evaluation process relied
    heavily on the prospective independent consultant to accurately
    report work previously performed for the servicer. As a result, the
    risk that independence concerns could go unreported and
    undetected was increased. In fact, subsequent to its initial
    approval, OCC identified independence concerns related to the
    independent consultant for Aurora Bank, Allonhill. In this regard,
    Allonhill had not reported all prior work on its summary of work to




-   Improvement Needed in OCC’s Oversight of Foreclosure Related     Page 8
    Consent Orders (OIG-13-049)
                       OTS.9 While this incident highlighted limitations in the initial
                       evaluation process, OCC’s subsequent identification of the
                       concerns and prompt removal of Allonhill, 10 indicated that the
                       ongoing monitoring process, though not documented, worked in
                       this instance.

                       According to OCC, the process of independence vetting was
                       consistent with that previously used to evaluate the independence
                       of consultants performing work in connection with consent orders.
                       OCC contended that an absolute prohibition on prior work with the
                       servicer was not practicable given the limited pool of consultants
                       with the capacity and expertise required to perform foreclosure
                       reviews. In addition, OCC officials identified the following controls
                       that they believed mitigated independence concerns:

                           •   OCC’s requirement that each engagement letter include
                               language by which the independent consultant asserts its
                               independence and a pledge to uphold the integrity of the
                               process;
                           •   OCC’s initial communication and reiteration of independence
                               requirements to the independent consultants;
                           •   The deterrent effect of damage to the independent
                               consultant’s reputation and prospects for future third party
                               work with a servicer overseen by OCC should the
                               independent consultant be found to have withheld
                               information during the evaluation process; and,
                           •   The regular discussion of independence issues between the
                               EICs and independent consultants, along with the regular
                               discussion of independence topics at weekly servicer and
                               independent consultant meetings with OCC headquarters
                               personnel.

                       We tested OCC’s independence evaluation process, including those
                       mitigating controls that OCC designed to reduce the level of
                       independence risk. We found that the ongoing independence
                       monitoring was not consistently documented and that OCC’s
                       planned testing of individual IFRs, which would have provided

9
  Prior to its functions being transferred to FRB, FDIC, and OCC; OTS was the regulator for Aurora
Bank. OCC became Aurora’s regulator after the transfer and enforced the consent order.
10
   OCC, News Release NR 2012-74, “OCC Statement - Cessation of Activities by Allonhill as an
Independent Consultant Under the Independent Foreclosure Review” (May 11, 2012).

-                      Improvement Needed in OCC’s Oversight of Foreclosure Related                  Page 9
                       Consent Orders (OIG-13-049)
    additional assurance of independent consultant objectivity, was not
    fully implemented when we completed our fieldwork. Given the
    limitations in the independence evaluation process, complete
    documentation of OCC’s oversight and direct testing of
    independent consultant work products was even more critical, not
    only to assist in ensuring the successful execution of the review
    process, but most importantly to address stakeholder needs, in
    particular those borrowers who were harmed in the foreclosure
    process.

    Borrower Outreach Efforts

    For the independent consultants to identify borrowers harmed by
    foreclosure weaknesses at the servicers subject to the consent
    orders, OCC determined that, in addition to performing the look
    back review, an outreach effort was needed to solicit potentially
    affected borrowers to participate in the request for review process.
    OCC determined that outreach similar to that used for a class
    action lawsuit would be appropriate, and issued guidance to the
    independent consultants and servicers defining outreach
    requirements in July 2011. In this guidance, OCC required that, at
    a minimum, outreach consist of direct mailings, advertisements,
    and Internet/phone communications.

    OCC also provided guidance to the independent consultants on the
    methodology for determining the population of loans subject to
    review under the consent orders and the sampling methodology for
    selecting loans from the population for the look back reviews.
    Independent consultants executed this guidance by (1) selecting
    approximately 160,000 borrowers for the look back review and (2)
    sending letters to more than 4.2 million potentially affected
    borrowers informing them of the request for review process. In
    addition, national and local print, radio, and television
    advertisements in English and Spanish (as well as in other
    languages on a more limited basis), and public service
    advertisements were run. A dedicated website and toll-free number
    were established. OCC solicited feedback from consumer outreach
    groups in developing the ads used in these campaigns. We noted
    that some of their suggestions were incorporated into the final
    advertisements.



-   Improvement Needed in OCC’s Oversight of Foreclosure Related   Page 10
    Consent Orders (OIG-13-049)
    OCC officials told us that they relied on each independent
    consultant to properly execute OCC’s population and sampling
    guidance and did not directly validate the independent consultants’
    population calculations or application of the sampling methodology.
    OCC officials told us they gained comfort in the independent
    consultants’ calculations through ongoing communication with the
    independent consultants. However, this communication was not
    always documented. For example, one EIC told us that OCC
    documentation related to the population determination would not
    necessarily capture all of the informal dialogue that occurred and
    another noted that no separate documentation verifying the
    population determination process was maintained.

    The servicers engaged Rust Consulting, Inc. (Rust), to serve as the
    single integrated claims processor. OCC officials told us that while
    OCC did not have any direct contractual relationship with Rust,
    they determined that there were no critical issues that would
    warrant not accepting Rust in this capacity. As the single
    integrated claims processor, Rust’s tasks included: (1) mailing
    outreach letters to approximately 4.2 million borrowers,
    (2) performing skip tracing to find updated addresses for borrowers
    in the population, (3) processing all incoming mail including all
    request for review submissions via mail or the website,
    (4) providing live call center support, and (5) tracking and reporting
    progress. Rust produced daily and weekly reports for OCC’s review
    on the number of request for review forms received and the types
    of requests, the use of the website and the toll-free borrower
    assistance phone number, and the quality of assistance provided to
    borrowers via the phone number. Rust also gathered and reported
    information regarding the progress of the independent consultants’
    work, including the number of forms in process and determinations
    of financial injury. OCC officials told us they performed on-site
    reviews of Rust and monitored its work through weekly meetings
    but they did not formally document the results of these reviews
    and monitoring.

    Our review of status reports generated by Rust found that the
    steps taken to update borrowers’ addresses and re-process
    undeliverable mail resulted in a total undeliverable rate of 5.6
    percent. These steps and the corresponding delivery rate were



-   Improvement Needed in OCC’s Oversight of Foreclosure Related    Page 11
    Consent Orders (OIG-13-049)
                      consistent with outreach standards for class action lawsuits. 11 On
                      August 2, 2012, OCC announced the extension of the deadline for
                      request for review submissions to December 31, 2012. This was
                      the third extension of the deadline. According to OCC, the
                      extensions provided additional time to increase awareness of the
                      IFR process and encouraged the broadest participation possible.

                      In June 2012, the Government Accountability Office (GAO)
                      issued a report on its examination of the IFR outreach process,
                      Foreclosure Review: Opportunities Exist to Further Enhance
                      Borrower Outreach Efforts. 12 GAO concluded that while OCC and
                      FRB had taken a number of steps to improve the servicers’
                      outreach over time by improving the format of communication
                      materials, incorporating feedback from consumer groups, and
                      increasing outreach to particular populations, opportunities for
                      further improvement remained. GAO recommended that the
                      regulators: (1) enhance the readability of the request for review
                      form, (2) include a range of potential remediation amounts or
                      categories in communication materials and other outreach, and
                      (3) require servicers to identify trends in borrowers who have and
                      have not responded by characteristics that can assist with
                      targeted outreach to underrepresented groups.

                      In its response to the report, OCC stated that it was in the
                      process of addressing each of GAO’s recommendations. Since
                      then, OCC and FRB have developed a plain-language help sheet
                      guide for borrowers completing the request for review form on the
                      IFR website. In addition, OCC and FRB released their joint
                      Financial Remediation Framework in June 2012 13 and completed a
                      market analysis to identify areas and ethnic groups with the
                      greatest opportunity for increased awareness.


11
   Federal Justice Center, Judges Class Action Notice and Claims Process Checklist and Plain Language
Guide, 2010. This checklist and guide supplements the Federal Justice Center’s “Managing Class
Action Litigation: A Pocket Guide for Judges” and provides guidance to judges on general notice and
communication factors related to class action lawsuits. Since OCC chose to pattern outreach after a
class action lawsuit, we used the notice plan section of the checklist as a guide when evaluating the
outreach.
12
   GAO, GAO-12-776 (June 29, 2012)
13
   OCC, News Release NR 2012-94, “Agencies Release Financial Remediation Guidance, Extend
Deadline for Requesting a Free Independent Foreclosure Review to September 30, 2012” (June 21,
2012).

-                     Improvement Needed in OCC’s Oversight of Foreclosure Related             Page 12
                      Consent Orders (OIG-13-049)
                      Independent Foreclosure File Reviews

                      From the start of the IFR process, OCC took steps to make the
                      servicers and independent consultants aware of OCC’s review
                      requirements. The requirements were also reflected in engagement
                      letters defining the scope of the independent consultants work. In
                      addition, OCC reviewed and approved engagement letters that
                      contained the independent consultants plan to implement this
                      guidance. Our review of a sample of six engagement letters found
                      that the parameters of the review agreed with the OCC guidance.
                      We noted that each independent consultant implemented its own
                      individual system and process to perform foreclosure reviews and
                      assure quality control in accordance with the engagement letters.

                      OCC officials told us that a key component of their oversight
                      process was their close communication with each independent
                      consultant through the OCC examination staffs onsite at each
                      servicer and through weekly status meetings held with examination
                      staffs, independent consultants, servicers, and OCC headquarters
                      officials. The OCC officials also told us that these meetings were
                      used in an effort to ensure consistency of approach among
                      independent consultants, monitor the status of reviews, identify
                      areas where OCC guidance was required, and address
                      independence issues. We were able to obtain testimonial evidence
                      that these meetings were held and we reviewed agendas, servicer-
                      prepared meeting summaries, 14 and reports, such as those
                      generated by Rust, to get an idea of the topics discussed.

                      On June 21, 2012, OCC released the Financial Remediation
                      Framework. The Framework, developed by OCC and FRB in
                      consultation with the servicers, the independent consultants,
                      community groups, and consumer advocate groups, provided
                      examples of situations indicating financial harm to the borrower. It
                      also contained guidelines for remediating these situations using




14
  Since OCC is to provide regulatory direction, and the fact that a key component of OCC’s oversight
was their close communication with each independent consultant through, among other things, weekly
status meetings held between OCC, independent consultants, and servicers, we were surprised to learn
that the servicers, not OCC, prepared the meeting summaries. We did note, however, that the meeting
summaries were circulated to all the meeting participants, including OCC.

-                     Improvement Needed in OCC’s Oversight of Foreclosure Related           Page 13
                      Consent Orders (OIG-13-049)
                      monetary compensation and other means. 15 It was expected that
                      the independent consultants would use the framework to
                      recommend remediation for financial injury identified during the IFR.

                      OCC oversaw the development of a review process that was
                      intended to result in an effective review of loans in the population,
                      identification of instances of financial harm, and provide
                      remediation to those harmed. However, the inherent complexity of
                      the review process contributed to independent consultant’s
                      reviews taking much longer than anticipated. One OCC official
                      commented to us that this was the most complex process that he
                      had encountered in his 28 years as an examiner. He pointed to
                      differences in independent consultant processes, variations in state
                      law, and changes in law over the period that the foreclosures
                      occurred as the primary drivers of this complexity. Another OCC
                      official characterized the reviews as tedious, difficult, and time
                      consuming.

                      OCC officials told us that, as of November 2012, approximately
                      $2 billion had been paid by servicers to the independent
                      consultants for the reviews. However, as of December 31, 2012,
                      reviews had been completed for only about 29 percent of the
                      293,000 look back files subject to review and less than 4 percent
                      of the 408,000 request for review files. No remediation amounts
                      had been calculated or remitted to harmed borrowers.

                      As noted previously, each independent consultant implemented its
                      own systems and processes to perform the reviews. This, along
                      with the complexity of the reviews, increased the risk that reviews
                      and remediation decisions would not be made in a consistent
                      manner. OCC officials told us that they had planned to review the
                      results of the independent consultants’ work. However, factors
                      such as the limited number of completed IFRs, examination teams’
                      focus on servicers’ remediation strategies, and the change in
                      consent order terms preempted the development and
                      implementation of a comprehensive, consistently documented
                      process for testing completed foreclosure reviews.

15
  Depending on the circumstances of the harm suffered by the borrower, the Financial Remediation
Framework may require servicers to take certain actions in addition to monetary compensation. These
actions may include suspending or rescinding the foreclosure, remedying deficiency balances, modifying
the loan, and correcting servicer records and/or credit reports.

-                     Improvement Needed in OCC’s Oversight of Foreclosure Related             Page 14
                      Consent Orders (OIG-13-049)
                       Monitoring Servicer Corrective Action

                       As mentioned above, the consent orders required servicers to make
                       extensive changes in mortgage servicing and foreclosure processes
                       to correct the unsafe and unsound practices identified in the
                       horizontal review. Among other things, the consent orders required
                       servicers to assess risk in their loan servicing, loss mitigation and
                       foreclosure operations, and develop plans to mitigate this risk. It
                       also required servicers to develop action plans to improve
                       governance and reporting over loss mitigation and foreclosure,
                       improve oversight of outsourced foreclosure-related functions, and
                       develop better control over Mortgage Electronic Registration
                       Systems, Inc. (MERS)-related activity including mortgage
                       assignment and endorsement. 16

                       OCC developed and implemented an automated document
                       management system to track servicer progress against plans the
                       servicers’ put in place to implement the corrective action required
                       by the consent orders. According to OCC’s Interim Report of the
                       Foreclosure-Related Consent Orders dated June 2012, servicers’
                       reported that they completed 93 percent of the individual
                       requirements of their respective action plans. The report also stated
                       that as the action plans were implemented, the servicers’ internal
                       oversight functions such as internal audit, compliance, and risk
                       management would provide ongoing review and control, including
                       testing and validation. Following implementation, OCC plans to
                       review, test, and validate corrective actions as necessary to
                       determine effectiveness and sustainability.

                       Because OCC’s testing and validation of servicer corrective actions
                       had not been completed as of the end of our fieldwork in August
                       2012, we are unable to include our assessment of this aspect of
                       OCC’s oversight in this report.




16
  MERS is a private company created by the mortgage banking industry to streamline the mortgage
process. MERS acts as the nominal mortgagee in the county for land records for the lender and servicer,
and tracks transfers of mortgages in its proprietary information system with the goal of eliminating the
need for assignment upon transfer of servicing. The practice of MERS acting in the capacity of
mortgagee is widely accepted in the mortgage industry.

-                      Improvement Needed in OCC’s Oversight of Foreclosure Related             Page 15
                       Consent Orders (OIG-13-049)
GAO Lessons Learned Review, Concluding Remarks, and
Recommendations
                      In March 2013, GAO issued a report entitled Foreclosure Review:
                      Lessons Learned Could Enhance Continuing Reviews and Activities
                      under Amended Consent Orders. 17 In it, GAO reported that the
                      complexity of the reviews, overly broad guidance, and limited
                      monitoring for consistency impeded the ability of OCC and FRB to
                      achieve the goals of the foreclosure review.

                      GAO found that consultants designed their reviews to address the
                      issues as they were identified in the consent orders and regulators
                      issued guidance to third-party consultants to help frame the file
                      review process and promote consistency. In addition to consistent
                      consent orders and guidance, OCC and FRB staff implemented
                      regular communication mechanisms to provide more consistency in
                      the reviews. To that end, regulators held regular meetings with
                      third-party consultants, servicers, examination team staff
                      overseeing the consultants’ work, and OCC headquarters and FRB
                      staff to discuss challenges with the file review process. However,
                      GAO pointed out that other efforts related to guidance and
                      monitoring may have exacerbated the challenges and complexities
                      inherent in the process. In addition, regulators’ limited monitoring
                      of the consistency of the consultants’ sampling methodologies and
                      review processes, increased risks that similarly situated borrowers
                      would receive different results.

                      Similarly, our audit found that OCC did develop an oversight
                      framework intended to address the material aspects of the IFR
                      process. We also point out that OCC defined and communicated
                      review parameters and guidance and set up a process to monitor
                      the independent consultants. Nonetheless, we also found that
                      there was an increased risk that reviews and remediation decisions
                      would not be made in a consistent manner due to the complexity
                      of the reviews and variations in independent consultants’ systems
                      and processes. We noted that OCC had not developed and
                      implemented a comprehensive, consistently documented process to
                      validate independent consultants’ implementation of sampling


17
     GAO, GAO-13-277 (Mar. 26, 2013)

-                     Improvement Needed in OCC’s Oversight of Foreclosure Related   Page 16
                      Consent Orders (OIG-13-049)
    guidance or for testing completed reviews to assess accuracy and
    consistency.

    While our scope was focused on the design of the oversight
    process, GAO’s testing went further, conducting site visits and in-
    person interviews with five consultant engagement teams. Based
    on that testing, GAO reported that inconsistencies in the
    application of regulator guidance, which we identified as an area of
    increased risk, had, in fact, occurred. The testing of the
    consultants also allowed GAO to identify areas where regulators
    were not specific enough to facilitate consistent outcomes.

    Based upon their work, GAO made three recommendations:

    (1) To better ensure that the goals of the foreclosure review are
        realized for servicers that are not subject to amended consent
        orders, GAO recommended that the regulators, as appropriate,
        improve oversight of sampling methodologies and mechanisms
        to centrally monitor consistency, such as assessment of the
        implications of inconsistencies on remediation results for
        borrowers in the remaining foreclosure reviews.
    (2) To better ensure that the goals of the amended consent orders
        related to the distribution of direct payments and other
        assistance are realized, GAO recommended that the regulators
        identify and apply lessons from the foreclosure review process,
        such as enhancing planning and monitoring activities to achieve
        goals, as they develop and implement the activities under the
        amended consent orders.
    (3) To better ensure transparency and public confidence in the
        activities under the amended consent orders and results of the
        continuing foreclosure reviews, GAO recommended that the
        regulators develop and implement a communication strategy to
        regularly inform borrowers and the public about the processes,
        status, and results of the activities under the amended consent
        orders and continuing foreclosure reviews.

    In its response to GAO’s report, OCC stated that it will continue to
    use its sampling guidance, monitor continuing foreclosure reviews
    for consistency, and apply lessons learned from the IFR to activities
    necessitated by the amended consent orders.



-   Improvement Needed in OCC’s Oversight of Foreclosure Related   Page 17
    Consent Orders (OIG-13-049)
    We believe that, by taking action to address GAO’s
    recommendations, OCC will go far to address the issues noted in
    our report. As part of this action, we recommend that the
    Comptroller of the Currency:

    1. Develop and implement examiner guidance defining the timing
        and scope of OCC’s direct testing of individual foreclosure
        reviews at the two servicers who are continuing the
        independent foreclosure review process.

        Management Response

        In its management response, OCC stated that testing has been
        ongoing. To assure consistency, oversight of the remaining
        reviews is being conducted by one examination team.
        Additionally, the team’s work and findings are reported to
        headquarters and senior management. Adjustments to scope are
        made as necessary.

        OIG Comment

        The intent of our recommendation is for OCC to ensure the
        consistent performance, documentation, and reporting of testing
        at the two servicers continuing the IFR process. OCC’s
        performance of testing by one examination team under the
        oversight of OCC headquarters personnel addresses this intent
        and is, therefore, responsive to our recommendation. As
        discussed in our report, on August 23, 2013, OCC announced
        that one of the two servicers, EverBank, agreed to a change in
        its consent order that will effectively end the IFR process for
        this servicer. Once the consent order is amended for EverBank,
        this recommendation will apply to the remaining OCC-
        supervised servicer, OneWest.

    2. Take steps to improve the overall documentation of OCC
        oversight efforts, especially related to the servicers’ execution
        of new consent order terms. For example, OCC should
        document OCC management approval of guidance issued and
        standards used; and more fully document the nature, extent,
        and results of actions OCC takes to assess servicer compliance
        with the consent orders.


-   Improvement Needed in OCC’s Oversight of Foreclosure Related      Page 18
    Consent Orders (OIG-13-049)
        Management Response

        OCC recognizes the need for greater documentation and has
        taken several steps to improve the documentation of its
        oversight. Since entering into the amended consent orders, OCC
        has enhanced its centralized planning, and improved its
        monitoring and tracking of activities to ensure OCC goals are
        met in a timely and consistent manner. For example, OCC put
        into place an expanded foreclosure consent order project plan,
        and it created an examination plan that each resident team will
        use to test compliance with the consent orders. Goal-oriented
        results are reported to the Comptroller of the Currency and
        other OCC senior management weekly.

        OIG Comment

        OCC’s actions are responsive to our recommendation.

                                        *****

    We appreciate the courtesies and cooperation provided to our staff
    during the audit. If you wish to discuss the report, you may
    contact me at (202) 927-0384 or James Lisle, Audit Manager, at
    (202) 927-6345. Major contributors to this report are listed in
    Appendix 3.



    Jeffrey Dye /s/
    Director, Banking Audits




-   Improvement Needed in OCC’s Oversight of Foreclosure Related   Page 19
    Consent Orders (OIG-13-049)
                      Appendix 1
                      Objectives, Scope, and Methodology




                      In April 2011, the Office of the Comptroller of the Currency (OCC)
                      and the former Office of Thrift Supervision (OTS) issued consent
                      orders against 12 major mortgage servicers for unsafe and unsound
                      practices in residential mortgage servicing and foreclosure
                      processing. 18 Among other things, the consent orders required to
                      servicers to implement an independent foreclosure review (IFR)
                      process using independent consultants to determine financial injury
                      to affected borrowers. The objectives of this audit were to assess
                      OCC’s:

                      •   oversight of servicers’ efforts to comply with consent orders.
                      •   determination of qualifications and independence of consultants
                          hired by servicers in accordance with consent orders.
                      •   oversight of consultants’ efforts to perform outreach, conduct
                          file reviews, and review homeowner claims of financial harm.
                      •   oversight of the single integrated claims process established by
                          OCC, servicers, and the consultants.

                      To address these audit objectives, we had planned to follow a
                      phased approach for this audit with the first phase focused on
                      OCC’s oversight of the design and monitoring of the independent
                      foreclosure review process. A second phase would focus on OCC’s
                      review of samples of completed foreclosure reviews and a third
                      phase would focus on OCC’s supervision of servicer compliance
                      with required changes in the consent orders in mortgage servicing
                      and foreclosure processes. With the February 2013 issuance of the
                      amended consent orders, which ended most independent
                      foreclosure review (IFR) activity, we decided to issue this report,
                      which is focused primarily on the design and monitoring of the IFR
                      process. We are undertaking a separate audit to assess OCC’s
                      process for determining the amount of cash payments that
                      servicers must make to borrowers under the amended consent
                      orders and evaluating OCC oversight of the administration of these
                      payments.
18
  OCC issued consent orders against eight national bank servicers: Bank of America, N.A.; Citibank,
N.A.; HSBC Bank USA, N.A., JPMorgan Chase Bank, N.A.; MetLife Bank, N.A.; PNC Bank, N.A.; U.S.
Bank National Association and U.S. Bank National Association ND: and Wells Fargo Bank, N.A. The
former OTS issued consent orders against four federal savings association servicers: Aurora Bank, FSB;
EverBank and its thrift holding company, EverBank Financial Corp.; OneWest Bank, FSB and its holding
company IMB HoldCo LLC; and, Sovereign Bank. With the transfer of OTS federal savings association
functions to OCC in July 2011 pursuant to Public Law 111-203, OCC now supervises the four federal
savings association servicers, including enforcement of the consent orders.

-                     Improvement Needed in OCC’s Oversight of Foreclosure Related             Page 20
                      Consent Orders (OIG-13-049)
                       Appendix 1
                       Objectives, Scope, and Methodology




                       To address the design and monitoring of the foreclosure review
                       process required by the initial consent orders, we

                           •   Reviewed the OCC- and OTS-issued consent orders,
                               engagement letters between the independent consultants
                               and the servicers, and OCC guidance regarding its
                               expectations for engagement letter and the borrower
                               outreach process.
                           •   Reviewed the independence guiding principles and OCC,
                               OTS, and the Board of Governors of the Federal Reserve
                               System (FRB) foreclosure review guidance. 19
                           •   Reviewed the Financial Injury Remediation Framework and
                               the documentation of the process that led to the final
                               framework.
                           •   Reviewed OCC’s Interim Status Reports of the Foreclosure-
                               Related Consent Orders, and monitoring reports produced by
                               Rust Consulting, Inc., to track the progress of outreach and
                               file reviews.
                           •   Reviewed related Government Accountability Office (GAO)
                               reports. These reports were Foreclosure Review -
                               Opportunities Exist to Further Enhance Borrower Outreach
                               Efforts, GAO-12-776 (June 29, 2012) and Foreclosure
                               Review: Lessons Learned Could Enhance Continuing Reviews
                               and Activities under Amended Consent Orders, GAO-13-277
                               (Mar. 26, 2013).
                           •   Interviewed the OCC examiner in charge and team at Bank
                               of America to gain perspective on OCC supervision of the
                               IFR process for that bank. We administered questionnaires to
                               examination teams at a sample of other servicers subject to
                               the consent orders to gain similar perspective. The servicers
                               sampled were JPMorgan Chase, Wells Fargo Bank, PNC
                               Bank, and OneWest Bank.
                           •   Interviewed OCC headquarters management, including the
                               Ombudsman, Assistant Director of Enforcement and
                               Compliance, Director of Enforcement, Mortgage Banking
                               Lead Examiner, Deputy Comptroller of Large Bank
                               Supervision, Deputy Chief Counsel, and Counsel for
                               Enforcement and Compliance to gain an understanding of the

19
  FRB issued consent orders against four financial institutions: Ally Financial, Inc.; SunTrust Banks,
Inc.; Goldman Sachs Group, Inc.; and Morgan Stanley in addition to those they issued against the
holding companies for national banks subject to OCC consent orders.

-                      Improvement Needed in OCC’s Oversight of Foreclosure Related                Page 21
                       Consent Orders (OIG-13-049)
    Appendix 1
    Objectives, Scope, and Methodology




            nature and extent of OCC oversight of the IFR process.
            Topics discussed included consultant independence, IFR
            performance and status reporting, plans for financial harm
            determination and remediation, and, amendment of the
            consent orders.
        •   Concurrent with our audit, GAO was reviewing the IFR
            process. We coordinated our fieldwork with GAO scheduling
            joint interviews and making joint documentation requests,
            when possible.

    We performed our audit fieldwork from January 2012 through
    August 2012.

    We conducted this performance audit in accordance with generally
    accepted government auditing standards. Those standards require
    that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and
    conclusions based on our audit objectives. We believe that the
    evidence obtained provides a reasonable basis for our findings and
    conclusions based on our audit objectives.




-   Improvement Needed in OCC’s Oversight of Foreclosure Related   Page 22
    Consent Orders (OIG-13-049)
    Appendix 2
    Management Response




-   Improvement Needed in OCC’s Oversight of Foreclosure Related   Page 23
    Consent Orders (OIG-13-049)
    Appendix 2
    Management Response




-   Improvement Needed in OCC’s Oversight of Foreclosure Related   Page 24
    Consent Orders (OIG-13-049)
    Appendix 3
    Major Contributors To This Report




    James Lisle, Audit Manager
    Vicki Preston, Auditor in Charge
    April Ellison, Auditor
    Maria McLean, Auditor
    Renee Whittington, Referencer




-   Improvement Needed in OCC’s Oversight of Foreclosure Related   Page 25
    Consent Orders (OIG-13-049)
    Appendix 4
    Report Distribution




    The Department of the Treasury

        Deputy Secretary
        Office of Strategic Planning and Performance Management
        Office of the Deputy Chief Financial Officer, Risk and Control
        Group

    Office of the Comptroller of the Currency

        Comptroller of the Currency
        Liaison Officer


    Office of Management and Budget

        OIG Budget Examiner




-   Improvement Needed in OCC’s Oversight of Foreclosure Related   Page 26
    Consent Orders (OIG-13-049)
